                                  AR-11-003


 FEDERAL TRADE COMMISSION

    Office of Inspector General




FOLLOW-UP REVIEW OF THE FTC
  PURCHASE CARD PROGRAM



        FINAL REPORT



         January 28, 2011
                                                 UNITED STATES OF AMERICA
                                       FEDERAL TRADE COMMISSION
                                                  WASHINGTON, D.C. 20580



Office of Inspector General




                                                                January 28, 2011



TO:                    Steven Fisher
                       Chief Financial Officer

FROM:                  John M. Seeba
                       Inspector General


SUBJECT:               Final Audit Report AR-11-003 – Follow-up Review of the FTC Purchase Charge
                       Card Program


                       This report presents the results of our review of the Federal Trade Commission’s
                       (FTC) Purchase Card Program. This audit was initiated as a follow-up review to
                       AR-07-002, “Review of the FTC Purchase Charge Card Program,” March 2007.
                       We conducted this audit to follow-up on recommendations in a previously issued
                       report on purchase charge cards to determine if the FTC has implemented
                       appropriate controls in compliance with Office of Management and Budget
                       (OMB) and FTC guidance.

                       We found that the Federal Trade Commission had implemented all open
                       recommendations from the March 2007 report. The FTC has generally
                       implemented effective internal controls to deter fraud, waste and abuse in the
                       program. However, we provided 3 additional recommendations to further
                       strengthen or improve administrative controls in the program. Specifically, we
                       recommended improvements in the areas of: tracking required training for card
                       holders and approving officials; updating the administrative manual with current
                       guidance; reinforcing the need for card holders to limit the use of convenience
                       checks for payments; and establishing criteria for purchasing certain overseas
                       travel services.

                       Management concurred with all the findings and recommendations proposed in
                       this report. The agency response is included in Appendix A.
             Note: Subsequent to the issuance of the draft report, management advised the OIG
             of a potential fraud committed by a purchase card holder. The OIG is currently
             investigating this issue and will provide a separate report on any findings and
             recommendations associated with this investigation.

             We appreciate the courtesies and cooperation extended to us by members of your
             staff during the audit. Should you have any questions please contact me at 202-
             326-2800.

CC:   Edwin Franklin, Acting Chief Acquisition Officer
      Diane Reinertson, Assistance CFO for Policy, Evaluation and Control
                                      BACKGROUND



The Administrative Manual, Chapter 2, Section 310 details the FTC policy on use of credit cards.
The Federal Acquisition Streamlining Act of 1994 (FASA) requires the maximum use of
electronic commerce as the simplest and most expeditious method of acquisition.

The FTC has adopted a program that uses a credit card for small acquisitions. Under a delegation
of procurement authority, the Acquisition Branch may issue purchase credit cards to qualifying
employees (card holders). The program permits multiple small acquisitions of acceptable goods
and services (generally each under $2,500) to be ordered by phone or in person and paid from a
single monthly statement. This program streamlines the procurement process by eliminating
unnecessary paperwork, staff time, and processing delays.

The program currently uses Citibank to provide VISA credit cards for small purchases. For
example, items such as supplies, small equipment purchases, training and vehicle maintenance
and fuel are purchased using the purchase card. Citibank's Internet-based system, CitiDirect,
provides program information, reporting, self-directed customer service, communications,
electronic statements, and online help and reference materials.

                                          Objectives

The audit objective is to follow-up on recommendations previously issued report on purchase
cards and determine if the FTC has implemented appropriate controls in compliance with OMB
and FTC guidance.

                                            Scope

We reviewed and tested selected purchase card data for the period October 2009 through June
2010 for selected purchase card holders. For this period, the FTC incurred purchase card
expenditures of about $1.9 million for 3,884 purchases.

                                         Methodology

The audit identified the various regulations, policies, and procedures prescribed by General
Services Administration (GSA) and FTC’s Administrative Manual, Section 310, “Credit Cards.”
We judgmentally selected 10 of 70 (14%) purchase card holders that purchased goods or services
in the amount $526,373 (28%). We interviewed 10 card holders and their 8 approving officials,
and tested transactions made by card holders during the period under review. We also reviewed
training certificates for all card holders sampled.


                                     FTC/OIG-AR-11-003
                                           Page 1
                               Reliability of Computer Based Data

We relied on the data supplied by the purchase card holders and independently obtained by the
Office of Inspector General from the CitiBank purchase card data base. Our tests of data found
that the information was sufficiently reliable for the tests that we conducted.

We conducted this audit in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

The audit was conducted during the months of July through October 2010.


                          FINDINGS AND RECOMMENDATIONS


Overall, we found that the FTC purchase charge card program had implemented all five
recommendations from the prior audit report, AR 07-002, “Review of the FTC Purchase Charge
Card Program,” March 2007. However, in conducting the follow-up review, we also found two
additional areas where internal controls could be strengthened to improve the program and one
area where management should reinforce policy.

Specifically, we found that:

   1. A system to track and ensure that the one year training requirement mandated by FTC
      policy was not in place. The agency coordinator maintains a file of training completed by
      card holders. In most cases, card holders were current in their training requirement,
      however several had exceeded the one year requirement by between one and three years.

   2. The use of convenience checks may be avoided in some circumstances where it appears
      that a vendor accepts credit cards. OMB Circular A-123, “Improving the Management of
      Government Charge Card Programs,” specifies that convenience checks may be written
      to vendors who do not accept the purchase card, for emergency incident response, and for
      other Agency approved purposes that comply with Public Law 104-134, the Debt
      Collection Improvement Act of 1996. The Act requires agencies, with limited exceptions,
      to make federal payments through electronic means. Currently, card holders approved to
      write convenience checks must complete a separate authorization sheet for approval to
      write a convenience check. While this requirement is an incentive for the card holders to
      avoid using convenience checks, there is no assurance that a vendor did not accept charge
      cards as payment. Because check fees are assessed when using convenience checks, the
      government incurs additional costs when using convenience checks.
                                      FTC/OIG-AR-11-003
                                            Page 2
   3. In the Office of International Affairs, the purchase of an evacuation service intended to
      assist employees in case of an illnesses or injury while in travel status for FTC business
      should be better defined and controlled. Good internal controls require the use of defined
      criteria when determining if an expense should be incurred for a legitimate government
      need. Lack of specific criteria caused the FTC to incur expenses where it was
      unnecessary or not justified.

    Finding A – All Recommendations from the Prior Audit Report Were Implemented

Overall, we found that the Federal Trade Commission followed the policies and procedures
promulgated by the General Services Administration and the FTC Administrative Manual. The
prior report AR 07-002, “Review of the FTC Purchase Charge Card Program,” March 2007
identified five recommendations for management consideration. Management agreed with all
the findings and recommendations. The five recommendations that were implemented by
management were:

   1. The OIG recommends that the Financial Management Office (FMO) update, document, and
      implement risk management controls on the FTC purchase card program by April 30, 2007.

   2. The OIG recommends that FMO review all Merchant Category Codes (MCC’s) currently in
      use and restrict the use of those that are not appropriate (in addition to the MCC’s in Table 1)
      by the end of FY 2007.

   3. The OIG recommends that by the end of FY 2007, FMO include policies and guidelines
      within the purchase card program that are consistent with the Travel and Transportation
      Reform Act of 1998 (P.L. 105-264, §2(a)).

   4. The OIG recommends that by the end of FY 2007, FMO develop and institute an internal
      audit system to conduct a monthly audit of all purchase charge card transactions in order to
      detect and prevent the misuse of the purchase charge card.

   5. The OIG recommends that by the end of FY 2007, FMO revise and implement a training
      program that is consistent with the requirements in OMB Circular A-123 Appendix B and
      Treasury Financial Manual Volume 1, Part 4, Chapter 4500.

We appreciate that management took immediate corrective actions on the above recommendations.

             Finding B – Tracking of Refresher Training Needs Improvement

The FTC has not established a formal system to track the training of approving officials or
purchase card holders. The FTC issued a memo on February 16, 2007, that requires all purchase
card holders and approving officials to complete the GSA’s SmartPay Purchase Card training on
an annual basis. This requirement is more stringent than the three year requirement specified in
OMB Circular A-123, Appendix B. Our review found that 7 of the 18 card holders or approving
                                       FTC/OIG-AR-11-003
                                             Page 3
officials had not taken the required refresher training. All card holders or approving officials had
taken some type of training; however the 7 mentioned above were not current in taking their
annual required refresher training. While this finding represents a minor non-compliance issue,
the FTC should take action to set up some type of tracking system to ensure that all card holders
or approving officials are current in their training requirement.

                                        Recommendation

1. We recommend that the agency coordinator establish a system to track required training and
the one year refresher training for card holders or approving officials in accordance with
established FTC policy.

2. We recommend that the agency coordinator maintain copies of all training certificates
pursuant to OMB A-123 Appendix B. Copies of all training certificates must be maintained
pursuant to National Archives and Records Administration requirements, General Records
Schedule 1, Item 10a.

3. We recommend that the Administrative Manual be updated with the policy issued in February
2007.

                                     Management Response

Management concurred with finding 1 to establish and maintain an Excel spreadsheet to track
card holder training. Management also concurred with recommendation 2 and will work with
HR to establish a system compliant with OMB A-123, Appendix B. For recommendation 3,
management has agreed to update the Administrative Manual by September 30, 2011.

                                          OIG Response

We concur with Management’s response and planned corrective actions.



                 Finding C – Use of Convenience Checks Should be Avoided

Convenience checks are authorized for a select group of card holders to pay for goods or services
that cannot be purchased with a purchase credit card. While the use of convenience checks make
the payment of non-credit card vendors easier and quicker than paying through a contract or
purchase order, the FTC currently incurs a fee of 2.25% of the purchase amount plus $2.00
amount. For the period October 1, 2009 through June 30, 2010, the FTC paid an additional
$4,583.87 in fees for 382 transactions. Because we do not pay a fee for using a credit card, this
represents an additional cost above the purchase price of the good or service.




                                       FTC/OIG-AR-11-003
                                             Page 4
Generally, convenience checks are used only when a vendor does not accept a credit card. In
most cases, payments are for court fees, transcript fees and payments for consultants. The OIG
observed that websites of state and federal agencies do accept credit cards for payment of fees.
We believe that card holders should explore all options prior to using a convenience check and
incurring additional fees.


                                        Recommendation

4. We recommend that the Financial Management Office reinforce the need for card holders to
affirmatively determine whether vendors will accept purchase charge cards for payment. For
vendors who do not accept charge cards, the card holder should annotate on the purchase order
that vendor does not accept a charge card and that a convenience check will be issued.

                                     Management Response

Management concurred with the recommendation and will issue a memorandum to all card
holders outlining the process to document when credit cards are not accepted by vendors and the
need to issue a convenience check.

                                          OIG Response

We concur with Management’s response and planned corrective actions.


     Finding D – Better Criteria Needed for Incurring Certain Foreign Travel Expense

Purchase of evacuation services for employees who travel overseas should be better defined and
controlled. The Office of International Affairs purchases a service for FTC employees traveling
on official business, that will evacuate them in case of an illness or injury while in travel status.
The service is purchased because in many countries that the FTC travels to, medical facilities are
substandard and this service is intended to provide transportation to an adequate care medical
facility should an in-country accident or illness occur. OMB Circular A-123, “Improving the
Management of Government Charge Card Programs,” Appendix B, states that “each agency
must develop and maintain written policies and procedures for the appropriate use of charge
cards …” Lack of specific criteria caused the FTC to incur an expense where it was unnecessary
or not justified.

The Office of International Affairs purchases this service for employees as a precaution against
the significant cost should an evacuation be necessary. This service, known as Global Solutions
(Medex), provides for evacuation services to assist employees in transporting them to the U.S. or
other countries where medical services would be adequate. For the period February 2008 through
September 2010, the FTC paid $9,909 to Medex for coverage of approximately 174 trips,
although some amounts cover what appears to be lengthier stays or multiple trips to the same
location.

                                       FTC/OIG-AR-11-003
                                             Page 5
For example, travel locations such as France, Costa Rica, Barbados and Brazil are considered by
the U.S. State Department to have adequate hospital and medical care facilities. In these cases,
purchase of the Medex “service” was unnecessary. Based on OIG analysis using the U.S.
Department of State website for information, we found that 44 of the 174 purchases were
unnecessary due to travel to locations with adequate medical facilities/care. The amount
expended for these trips totaled $1,560.80.

Based on OIG analysis of the facts presented, the purchase of Medex services was generally
reasonable. However in certain circumstances, the Medex service should not be purchased when
traveling to locations with adequate medical care.

                                      Recommendation

5. We recommend that the FTC develop criteria to determine when it is appropriate to purchase
Medex services when traveling to locations that have inadequate medical care/facilities. We
suggest that the FTC use the U.S. Department of State website as a guide for this determination.

                                   Management Response

Management concurred with the recommendation and will work with the Office of International
Affairs to develop criteria for assessing when it is appropriate to purchase Medex services for
employees traveling overseas.

                                        OIG Response

We concur with Management’s response and planned corrective actions.




                                     FTC/OIG-AR-11-003
                                           Page 6
 Exhibit A – Agency Response




FTC/OIG-AR-11-003
      Page 7
Continued - Exhibit A – Agency Response




   FTC/OIG-AR-11-003
         Page 8
Continued - Exhibit A – Agency Response




   FTC/OIG-AR-11-003
         Page 9
                     Abbreviations Used in This Report



CFO    Chief Financial Officer
FASA   Federal Acquisition Streamlining Act of 1994
FMO    Financial Management Office
FTC    Federal Trade Commission
GSA    General Services Administration
IG     Inspector General
MCC    Merchant Category Codes
OIG    Office of Inspector General
OMB    Office of Management and Budget




                      FTC/OIG-AR-11-003
                           Page 10
